                          Unite
                              ed States Deparrtment of
                                                    o the In
                                                           nterior

                                            Offfice of Insppector Genneral
                                                  Westernn Region
                                                     Federal Building
                                              2800 Cottage Way,
                                                           W Suite E-27712
                                               Sacramento, California
                                                           C          958225


                                                                 Report No.
                                                                        N WR-VS--MOI-0009--2009
                                                                             Sepptember 30, 2009

Memoranndum

To:         Assistant Secretary foor Indian Afffairs
            Assistant Secretary foor Policy, Management anda Budget
               (Attenntion: Assocciate Directoor for Financce, Policy annd Operationns)

From:       Michael P.
                    P Colombo
            Regional Manager

Subject:    Verificatiion Review of
                                 o Nine Recoommendatioons from ourr February 20004 Audit Report
                                                                                         R
            Improvemments Neededd to Ensure Safety
                                             S      and Program
                                                         P      Perf
                                                                  rformance – School
            Constructtion Programm, Bureau off Indian Affaairs
            (Report No.
                    N W-FL-BIIA-0047-20002)

       The Office off Inspector General
       T                        G        (OIG G) has completed a veriffication revieew of nine
recommeendations preesented in thhe subject auudit report. The
                                                           T objectivve of the reviiew was to
determinne whether th
                    he recommenndations werre implemennted as reporrted to the Office of Finaancial
Managem ment on May y 6, 2008.

Backgrround
        Our February
        O           y 2004 audit report, Imprrovements Needed
                                                          N       to Enssure Safety and
                                                                                     a Program     m
Performaance – Schoo ol Constructtion Program m, Bureau off Indian Affaairs, made niine
recommeendations to correct deficciencies relaated to the Buureau of Inddian Affairs’ (BIA) schoool
constructtion program
                    m. Based on BIA’s Marcch 5 and Junne 21, 2004 responses
                                                                        r          to the final repport,
the OIG considered three
                    t     of the recommenda
                                 r            ations implemmented (Reccommendations 4, 5, andd 8).
On July 12,
         1 2004, thee six remaining recomm  mendations were
                                                          w referred to the Assisstant Secretaary
for Policyy Managemeent and Budget for trackking of impleementation and a resolutioon.

       Inn its March 30
                     3 and Octobber 6, 2005 memorandum
                                            m           ms to the OIIG, the Officce of Financiial
Managem ment stated that
                     t BIA hadd completed actions requuired to impllement four
recommeendations (R Recommendaations 1, 2, 3, and 7). Onn November 14, 2006, thhe Office of
Financiall Managemeent reported that
                                t BIA hadd taken actioons required to implemennt
Recommmendation 9. In a May 200, 2008 mem  morandum too the OIG, thhe Office of Financial
                                                                                 F
Management reported that BIA had provided documentation to sufficiently implement the
remaining recommendation (Recommendation 6).

Scope and Methodology
       We limited the scope of this review to determining whether BIA took action to
implement the recommendations. To accomplish our objective, we interviewed BIA officials
and reviewed supporting documentation related to the recommendations. On September 3, 2009,
BIA provided a written response with updated information on the status of the six
recommendations that were referred to the Assistant Secretary for Policy Management and
Budget.

       We did not perform site visits or conduct detailed audit fieldwork to determine whether
the underlying deficiencies initially identified have actually been corrected. As a result, this
review was not conducted in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States.

Results of Review
        Our review found that BIA implemented Recommendations 1, 2, 4, 5, 6, 7, and 8, but has
not fully implemented Recommendations 3 and 9. The status of the recommendations is
summarized in the Appendix.

Recommendation 1: “Fully implement the May 1999 ‘Plan to Ensure the Integrity of School
Construction Grants.’”

Recommendation 2: “Ensure that BIA safety requirements are followed, including approval
of construction plans and specifications prior to construction and final inspection and
certification before new buildings are occupied. This should include assigning responsibility
to ensure that buildings are not occupied before safety deficiencies are corrected.”

Recommendation 4: “Adhere to the May 1999 Plan submitted to Congress and require that
the $5 million advance payment limitation be followed or advise the House Appropriations
Committee of the basis for the payment cap removal.”

Recommendation 5: “Implement a project tracking system to summarize milestone progress
and allow for project monitoring from start to completion to meet BIA’s 3-year goal. This
should incorporate detailed reporting to Congress on all projects experiencing major delays.”

Recommendation 6: “Maintain subsidiary records of available construction funding on a
project-by-project basis to identify unused appropriated funds, adhere to BIA reprogramming
policy for the use of these funds (including the Sac & Fox, Zia Day, and Dunseith Schools),
and expand the policy to specify that the funds should be used for school construction projects
identified in the budget justifications.”




                                                2
Recommendation 7: “Develop a policy that establishes time frames for consulting with tribes
and determining how project savings are to be used.”

Recommendation 8: “Establish performance goals for the school construction program to
measure the number of replacement and major repair projects to be completed each year.”

      Actions taken by BIA were sufficient for us to consider these seven recommendations
implemented.

Recommendation 3: “Apply, as applicable, the guidance in the May 1999 Plan to projects
constructed under Public Law 93–638 contracts and self-governance compacts; for example,
requiring that tribal or school management systems be evaluated before negotiating payment
advances.”

        On March 30, 2005, BIA reported that it had requested an opinion from the Office of the
Solicitor on June 30, 2004, regarding this recommendation, but had not received a response.

        In its September 2009 response, BIA stated that it is “confirming receipt” of the
Solicitor’s opinion. BIA explained that the Tribally Controlled School Grants Act
(P.L. 100–297) provides tribes the option of receiving a grant rather than a self-determination
(P.L. 93–638) contract for the operation of schools. P.L. 100–297 construction grants are
regulated by 43 CFR Part 12. The guidance in the May 1999 Plan only references
43 CFR Part 12 and that is why an opinion was requested from the Office of the Solicitor
regarding the application of the guidance to P.L. 93–638 construction contracts. Regarding the
evaluation of tribal or school management systems, BIA stated that it utilizes the OMB Circular
A–133 Single Audit process and past performance to determine a tribe’s risk rating for capability
of managing projects.

         Because BIA has not received a response from the Office of the Solicitor, we concluded
that this recommendation was not implemented and should be reopened. BIA should determine,
in conjunction with the Office of the Solicitor, whether or not the May 1999 Plan may legally be
applied to Public Law 93–638 contracts.

Recommendation 9: “Conduct comprehensive workload analyses to determine OFMC [Office
of Facilities Management and Construction] and DSRM [Division of Safety and Risk
Management] staffing needed to effectively manage the school construction program.”

        On October 11, 2006, BIA reported to the OIG that because of reductions in appropriated
funding for school construction, the need for a formal workload study had been reassessed. BIA
stated that it sought other solutions because “the staffing study would take months to complete,
and if additional staff was justified, even longer to increase staffing budget levels as well as
recruit and fill additional positions.” As an alternative, BIA turned to outside agencies to assist
in the execution of the school construction program. BIA stated that it entered into Interagency
Agreements with the General Services Administration (GSA) and the Army Corps of Engineers
in an effort to “meet increasing or diminishing workload demands without having to deal with
issues of overstaffing or understaffing.”



                                                 3
       It its September 2009 response, BIA provided a list of active interagency agreements with
Army Corps of Engineers and stated that it does not currently have any interagency agreements
with GSA. BIA explained that there have been times when GSA or Army Corps of Engineers
were unable to respond in a timely manner. However, this usually did not occur concurrently,
and when it occurred BIA had recourse to consultants.

        BIA also stated that workload analysis is informally conducted on a recurring basis as
each project year is considered. Action was taken to include project management tasking as well
as alternative project management and acquisition techniques in order to provide a manageable
workload for project managers. In addition, the workload for facilities construction has fallen by
more than 80 percent in the last 3 years.

       Despite the fact that BIA has taken actions to address staffing needs, it has not conducted
comprehensive workload analyses. A significant decrease in the amount of facilities
construction funding in recent years does not eliminate the need for workload analyses. Rather,
funding cuts further illustrate the need for BIA to conduct comprehensive workload analyses.
Accordingly, we concluded that the recommendation was not implemented and should be
reopened.

Conclusion
       We consider Recommendations 3 and 9 as not implemented; therefore, we request that
the Office of Financial Management reinstate these recommendations and take appropriate
follow-up actions.

       We informed BIA officials of the results of this review at an exit conference on
September 29, 2009. BIA should provide the Office of Financial Management with the
information on the actions it will perform to implement and resolve the recommendations.

Responding to the Report
        We request that the Office of Financial Management inform us whether it reinstated
Recommendations 3 and 9 by November 2, 2009. If you have any questions regarding this
report, please contact me at (916) 978-5653.

cc: Director, Bureau of Indian Affairs (MS 4140 MIB)
    Audit Liaison Officer, Assistant Secretary for Indian Affairs – Attn: Michael Oliva
    Audit Liaison Officer, Department of the Interior – Attn: Nancy Thomas (MS 2557 MIB)
    Chief, Audit Follow-up, Internal Control and Financial Reporting, Office of Financial
      Management, Office of Assistant Secretary for Policy, Management and Budget
      (MS 2557 MIB)




                                                4
                                                                           Appendix


   STATUS OF PRIOR AUDIT REPORT RECOMMENDATIONS

Recommendation          Status                       Action Required
                 Resolved and
      1                                No further action required.
                 Implemented
                 Resolved and
      2                                No further action required.
                 Implemented

                                       We are requesting that the Office of Financial
                                       Management reinstate the recommendation.
      3          Not Implemented       BIA should determine, in conjunction with the
                                       Office of the Solicitor, whether the May 1999
                                       Plan may be applied to P.L. 93–638 contracts.

                 Resolved and
      4                                No further action required.
                 Implemented
                 Resolved and
      5                                No further action required.
                 Implemented
                 Resolved and
      6                                No further action required.
                 Implemented
                 Resolved and
      7                                No further action required.
                 Implemented
                 Resolved and
      8                                No further action required.
                 Implemented
                                       We are requesting that the Office of Financial
                                       Management reinstate the recommendation.
                                       BIA should conduct comprehensive workload
      9          Not Implemented
                                       analyses to determine OFMC and DRSM
                                       staffing needed to effectively manage the
                                       school construction program.




                                   5
